AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No.
X
HAROLD SHURTLEFF and CAMP CONSTITUTION,
PETITIONERS,

U.

CITY OF BOSTON and ROBERT MELVIN, in his official capacity as Commissioner
of the City of Boston Property Management Department,
RESPONDENTS.

I, Roger K. Gannam, am over the age of eighteen years, Counsel of Record in the
above-captioned cause, and upon my oath depose and say that:
I am Counsel of Record for Petitioners, and that on this June 21, 2021, I served the
within Petition for Writ of Certiorari and Appendix in the above-captioned cause
upon:
Robert Arcangeli
Assistant Corporation Counsel
City of Boston Law Department
City Hall, Room 615
Boston, MA 02201
(617) 635-4044
robert.arcangeli@boston.gov
by submitting an electronic version at the email address of counsel of record for
Respondent, in accordance with this Court's April 15, 2020 Order relieving parties
of the obligation to effectuate service by paper copies.
That on the same day as above, and in accordance with this Court's April 15, 2020
Order, I dispatched a true and correct copy of the foregoing Application and
Appendix for delivery to the Supreme Court Clerk's Office.

RECTEWED
JUN 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

